<html>
<title> - HOLOCAUST ERA ASSETS--AFTER THE PRAGUE CONFERENCE</title>
<body><pre>[Joint House and Senate Hearing, 111 Congress]
[From the U.S. Government Publishing Office]





            HOLOCAUST ERA ASSETS_AFTER THE PRAGUE CONFERENCE

=======================================================================

                                HEARING

                               before the

           COMMISSION ON SECURITY AND COOPERATION IN EUROPE:
                        U.S. HELSINKI COMMISSION

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 25, 2010

                               __________

                       Printed for the use of the
            Commission on Security and Cooperation in Europe




                   Available via http://www.csce.gov
                   
                                ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

95-184                         WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                    LEGISLATIVE BRANCH COMMISSIONERS

               SENATE

                                                    HOUSE

BENJAMIN CARDIN, Maryland,           ALCEE HASTINGS, Florida, 
    Chairman                           Co-Chairman
CHRISTOPHER DODD, Connecticut        EDWARD MARKEY, Massachusetts
SAM BROWNBACK, Kansas                LOUISE McINTOSH SLAUGHTER,
SAXBY CHAMBLISS, Georgia              New York
RICHARD BURR, North Carolina         MIKE McINTYRE, North Carolina
ROGER WICKER, Mississippi            G.K. BUTTERFIELD, North Carolina
JEANNE SHAHEEN, New Hampshire        JOSEPH PITTS, Pennsylvania
SHELDON WHITEHOUSE, Rhode Island     ROBERT ADERHOLT, Alabama
TOM UDALL, New Mexico                DARRELL ISSA, California

                     EXECUTIVE BRANCH COMMISSIONERS

                  MICHAEL POSNER, Department of State
               ALEXANDER VERSHBOW, Department of Defense
           HOLOCAUST ERA ASSETS--AFTER THE PRAGUE CONFERENCE

                              ----------                              

                              May 25, 2010
                              
                                MEMBERS

                                                                   Page
Hon. Benjamin Cardin, Chairman, Commission on Security and 
  Cooperation in Europe..........................................     1
Hon. Christopher Smith, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................     3

                               WITNESSES

Stuart Eizenstat, Partner, Covington & Burling LLP, former U.S. 
  Ambassador to the European Union...............................     4

 
           HOLOCAUST ERA ASSETS--AFTER THE PRAGUE CONFERENCE

                              ----------                              


                              MAY 25, 2010

  Commission on Security and Cooperation in Europe,
                                                    Washington, DC.

    The hearing was held from 2:30 to 3:22 p.m. EST, 428A 
Russell Senate Office Building, Washington, DC, Senator 
Benjamin Cardin (D-MD), Chairman, Commission on Security and 
Cooperation in Europe, presiding.
    Members present: Hon. Benjamin Cardin, a Senator from the 
State of Maryland, Hon. Alcee Hastings, a Member of Congress 
from the State of Florida and Hon. Chris Smith, a Member of 
Congress from the State of New Jersey.
    Witnesses present: Stuart Eizenstat, Partner, Covington & 
Burling LLP, former U.S. Ambassador to the European Union.

   HON. BENJAMIN CARDIN, A SENATOR FROM THE STATE OF MARYLAND

    Mr. Cardin. Let me welcome you all to the Helsinki 
Commission hearings. I've been informed that the House has a 
series of votes so I assume that Congressman Hastings, who had 
planned to be here, will be delayed as a result of that. And 
he's asked that we start the hearing, knowing full well that 
schedules are going to be difficult during this last week 
before the Memorial Day recess.
    I also want to welcome you to the recently renovated small 
business committee hearing room. I serve on the small business 
committee and this room was recently renovated to reflect the 
importance of small business to our economy. And it's a 
pleasure to have Ambassador Eizenstat with us, and I'll have a 
little bit more to say about that.
    Twenty years ago, the establishment of democratically 
elected governments in Central and East Europe gave us hope 
that at long last, we would be able to deal with property 
restitution issues left over from the Nazi era, World War II. 
With democratically elected governments, we thought that we 
would be able to get these issues addressed in a more open and 
transparent way, bringing justice to people who had waited a 
long time in regards to property that was wrongfully taken.
    The Helsinki Commission began to examine some of these 
issues and convened its very first hearing on property claims 
issues in 1996. And it's interesting that Ambassador Eizenstat 
was our witness at that hearing, so it's nice to have 
Ambassador Eizenstat back with us 15 years later. 
Unfortunately, we still have some issues that are unresolved.
    We were very heartened when the Czech government agreed to 
host a conference to examine outstanding issues relating to 
Holocaust-era assets. I introduced a resolution in the Senate 
specifically condemning the Czech government and supporting the 
goals of the Prague conference. Separately, I cosponsored, with 
Sen. Nelson, a resolution on specific problems of restitution 
or compensation for property seized in Nazi and Communist eras.
    I do want to take a minute to express my concerns about two 
countries that were mentioned by name in the Senate resolution. 
First, let me talk about Poland. Successive governments in 
Poland have promised to adopt an effective general property 
compensation law, but no government to-date has been able to do 
so.
    I understand that this is a particularly complex problem in 
Poland. Poland probably had greater border changes and more 
population transfers or expulsions at the end of the war than 
any other country in the region. And the confiscations carried 
out during the Nazi occupation were compounded by confiscations 
undertaken by the Polish Communist regime.
    In other words, addressing this issue in Poland may be 
especially challenging. But I do not believe it is impossible. 
Indeed, the adoption of a limited property compensation law in 
2005, for Poles who were originally from territories beyond the 
Bug River, was a useful start to addressing private property 
claims, but it should not be the end. Every major political 
party in Poland has supported draft legislation on property 
compensation and I hope the Prime Minister will be able to 
carry through on his stated commitment to see a general 
property law adopted.
    Second, the resolution we introduced last year also drew 
attention to the situation in Lithuania. Unfortunately, 
Lithuania's 1995 law on the return of property to religious 
associations is needlessly restrictive. I hope the Government 
of Lithuania will fulfill promises it has made to revisit the 
legal framework and ensure that community property--not limited 
to houses of worship only, but also including, for example, 
schools--is returned. I might tell you that last year, we 
brought these issues directly up to the Lithuanian government 
when our annual meeting was held in Vilnius.
    We are honored to have before us today Ambassador Stuart 
Eizenstat. His full bio is available and I will not go through 
citing or embarrassing him on all of his accomplishments. 
Ambassador Eizenstat is our former U.S. Ambassador to the 
European Union. In the 1990s, he led the negotiations for the 
United States with the Swiss, German, Austrian, and French 
private sectors and their governments on Holocaust-era bank 
accounts, slave and forced labor, unpaid insurance policies, 
immovable property, and the restitution of or compensation for 
stolen communal and private property. Last year, he led the 
U.S. delegation to the Prague Conference and he has just 
returned from follow-up discussions in the Czech capital.
    As Lord Janner said of him at the conference in Prague last 
year, Stuart Eizenstat has ``labored through the endless 
complexities to secure tangible results.'' Ambassador 
Eizenstat, it's truly a pleasure to have you once again before 
the Helsinki Commission. And we are joined by Congressman 
Smith, who is working his way up. And if you would just wait 
for one moment, I would like to give Congressman Smith an 
opportunity, if he would like, to make some opening comments 
before we get started.

 HON. CHRIS SMITH, A MEMBER OF CONGRESS FROM THE STATE OF NEW 
                             JERSEY

    Mr. Smith. Thank you very much, Mr. Chairman, and I thank 
you for calling this very important hearing. And I'd like to 
welcome Ambassador Eizenstat and everyone and thank them for 
joining us this afternoon.
    I'm sorry to note that one of the witnesses from one of the 
commission's earlier hearings on Holocaust assets, Jan Sammer, 
passed away just a few months ago. He was a principled and 
tenacious advocate for property rights in the Czech Republic. 
And I, along with, I know, everyone in this room, am deeply 
saddened that the Czech Republic did not resolve its unjust and 
discriminatory practices before his death, and indeed, has not 
done so yet.
    Mr. Chairman, our government must pursue justice for those 
robbed by the Nazis and their accomplices and still defrauded 
by governments who connive at the Nazis' crimes by refusing to 
make them right. Each year, we lose more Holocaust survivors 
and that precious generation of witnesses will soon be gone. 
The failure to return their properties is tragic proof of the 
axiom, justice delayed is justice denied.
    Very often, the failure to return properties is morally 
incomprehensible and impossible to justify and reflects very 
poorly on the government concerned. Let me mention just one 
such case: Three years ago, I joined with other members of our 
commission to write to the Hungarian foreign minister regarding 
artwork looted from the family of Martha Nierenberg during 
World War II.
    The Hungarian government does not dispute that these 
paintings were unjustly taken from the family. In fact, the 
family's paintings had been on display in Hungarian museums 
with signs stating as much. Yet, the Hungarian government 
refuses to return the paintings to their rightful owner. This 
is blatant and a gross injustice.
    Mr. Chairman, many wrongs of the Holocaust can never, ever 
be undone, but this one can. The Hungarian government has the 
legal authority to return these stolen paintings and has the 
moral responsibility to do so. Likewise, other governments in 
Europe have a serious moral responsibility to return property 
stolen during the Holocaust.
    Really, is it hard to imagine how some people sleep at 
night living in homes stolen from Jewish families during the 
Holocaust, enjoying paintings and real estate stolen from those 
victims while the victims' descendants are cut off and shut 
out? How do the government officials that enable this injustice 
sleep at night?
    Ambassador Eizenstat, welcome again and I thank you for 
your extraordinary leadership and vision in demanding justice 
for those who are unjustly deprived of their property. Thank 
you.
    Mr. Cardin. Thank you very much, Congressman Smith. I 
appreciate very much you coming by. Ambassador Eizenstat.

STUART EIZENSTAT, PARTNER, COVINGTON & BURLING LLP, FORMER U.S. 
                AMBASSADOR TO THE EUROPEAN UNION

    Mr. Eizenstat. Thank you very much. I'm really honored to 
be here but even more pleased with the fact that you and 
Congressman Smith and Congressman Hastings and others are 
elevating this issue again because it's very important to do 
so.
    I'd be remiss if I didn't begin by saying that the Office 
of Holocaust Assets at the State Department, which was created 
in the Clinton administration and continued in the Bush and now 
Obama administration, does an enormous amount of work with very 
few people. They're all excellent; they're dedicated.
    Christian Kennedy is just ending a three-and-a-half year 
tenure as special envoy of Holocaust issues; Douglas Davidson, 
a very experienced and excellent career Foreign Service officer 
is taking his place and Basil Squirellus (ph), John Becker 
(ph), Liz Naikan (ph), Greg Matheson (ph), some of whom work 
only part-time, get a tremendous amount done on this issue.
    I have, as you mentioned, just come back from Prague for 
follow-up negotiations to the fifth of five international 
Holocaust-related conferences--the first being in London in 
1997 on Nazi looted gold; the Washington Conference on 
Holocaust-Era Assets, which focused on art in '98; the January 
2000 Stockholm Conference; and the December 2000, Vilnius 
Conference, all of which were aimed at belated justice for 
Holocaust survivors and their families but also for other 
victims of Nazi oppression.
    All of these were in the context of negotiations I led 
during the Clinton administration in which $8 billion in 
revenues were obtained for Holocaust victims and other victims 
of Nazi aggression--the majority, by the way, of that money 
from non-Jews--from Swiss and French banks, German and Austrian 
slave labor and forced-labor companies, insurance companies and 
others, leading to the return of thousands of pieces of looted 
art and many other properties.
    We are indebted to the Czech government for hosting and 
providing leadership for the historic Prague conference, which 
is by far the most ambitious of the five conferences in which I 
have participated. It has covered the widest array of issues, 
some of which, remarkably, were not considered before, like the 
social welfare needs of survivors and private property 
compensation or restitution. It also has provided new momentum 
on issues such as art recovery.
    And it's the first, Mr. Chairman, of the Holocaust-related 
conferences to provide a follow-up mechanism. The Czechs have 
just created, and in Prague, I helped inaugurate with the 
foreign minister, the European Shoah Legacy Institute, which 
will ultimately be located in Terezin.
    During the conference, we also managed to build a consensus 
around a series of non-binding moral commitments for action. 
Embodied in something we call the Terezin Declaration, of which 
all 47 participating states accepted and which we're now trying 
to develop specific private property guidelines and best 
practices. I'd like to submit a copy of that declaration for 
the record and focus on three of those commitments: improved 
social welfare benefits for survivors, private property 
compensation and art restitution.
    On social welfare: Elderly Holocaust victims have unique 
social welfare needs. Many survivors lost their entire families 
in the Holocaust and have no family support network in their 
old age. Recent studies by the Jewish Claims Conference 
indicate that some half of the world's 500,000 Holocaust 
survivors live in poverty--35 percent of those in Israel do so; 
25 percent of Holocaust survivors in our own wealthy country 
live in poverty; in New York City, our greatest financial 
center, over 33 percent do.
    This is an unacceptable situation: that those who suffered 
so grievously in their youth should now have to sustain in 
their declining years deprivation and poverty. Hundreds of 
thousands of survivors around the world face significant health 
problems and they are in such dire financial circumstances that 
they simply cannot live out their remaining years in dignity. 
They need many things--in particular, home care.
    As the Terezin Declaration noted, focusing for the first 
time on their social needs, several states have begun to use a 
variety of creative mechanisms to provide assistance both to 
those needy Holocaust survivors and to other victims of Nazi 
persecution. This includes, for example, special Social 
Security benefits to nonresidents.
    Austria provides for all of its survivors regardless of 
where they live, special homecare benefits; the use of assets 
from heirless property. And some countries are also proposing 
to adopt other methods of support, such as making all 
concentration camp survivors eligible to receive a pension as 
war veterans. I believe France is doing that.
    The Federal Republic of Germany, of course, provides 
perhaps the most prominent example. It designated in 1951 the 
Conference on Jewish Material Claims against Germany as a 
successor organization for unclaimed property in former East 
Germany and to negotiate what is now $100 billion of payments 
over the past 60 years for the benefit of Holocaust survivors. 
That is by far the single-largest source of funding. It goes 
through the claims conference to meet unmet social needs.
    The second issue is property restitution, to which you 
referred in your eloquent statement, Mr. Chairman. And let me 
turn to that. In 1994, then-Assistant Secretary of State 
Richard Holbrooke, when I was ambassador to the European Union, 
asked me to take on a dual role as a special representative on 
Holocaust issues to try to encourage the new democracies to 
which you referred in the former Soviet/East bloc to restitute 
communally owned property for Christian and Jewish communities.
    They are communities that were unable to practice their 
religion either because they were devastated during World War 
II or because of restrictions under Communism, and they needed 
the physical infrastructure to rebuild not just religious but 
also their cultural life. And so we encouraged the return of 
churches, synagogues, schools, community centers, even 
cemeteries in order to give them that physical infrastructure 
to rebuilt their shattered lives, shattered by the twin 
tragedies of the 21st century, Nazism and Communism.
    I found in going through virtually every country in Central 
and Eastern Europe that there was a complete lack of a 
comprehensive, systematic way of handling immovable property 
claims except in the Federal Republic of Germany. We're going 
to submit, with your permission, in the next several weeks, a 
country-by-country analysis of where things stand. But let me 
focus on three countries where long-overdue improvements are 
necessary.
    The first is Poland, to which you referred, Mr. Chairman, 
whereas you mentioned for several years, governments have been 
making efforts to enact legislation governing private property 
restitution. After several attempts, the Polish government, we 
understand, has now prepared new legislation, which in due 
course it intends to submit to parliament.
    This new law would benefit not only current residents in 
Poland, but also all those living abroad who were either 
themselves or their family residents in Poland at the time of 
the taking both by the Nazis and by the Communists thereafter. 
Unfortunately, in our view, the proposed legislation still 
falls short in certain ways. For example, it does not include 
property in Warsaw, which is home to the largest pre-war Jewish 
population in Poland. And we hope that this draft law can be 
improved.
    However, we do understand that there is a plan which has 
some promise for the city of Warsaw to fill this void with a 
city law that will provide a compensation program funded by the 
sale of city-owned property. And we're hopeful that the best 
practices that we're now negotiating and which the Czech prime 
minister has indicated he will declare if our negotiation is 
successful on June 9th, will add an additional impetus.
    Poland has been participating in these talks and we hope 
that this will encourage them. It is, as you say, an extremely 
difficult issue. They were victims themselves as well as the 
Jews. They suffered a double loss because of the Communist 
taking. And we understand and support the notion that non-Jews 
whose property was taken by the Communists should also benefit.
    Another area of potential progress in the near future is 
communal property in Lithuania, a country where not enough has 
been done to return communal property. And we understand the 
government, with the tacit agreement of the local Jewish 
community, may be submitting a communal property proposal to 
the parliament soon.
    And finally, Romania, which has established a fund to pay 
compensation for property claims. But that fund, Mr. Chairman, 
was created in 2005; it's still not operational. At the same 
time, there is some modest array of hope because they've hired 
a major-fund manager, and that fund manager is there to manage 
the fund. Presumably, that indicates their willingness to move 
forward.
    The Terezin Declaration urged participating states to 
implement their own national programs to address these 
unresolved immovable property issues and recommended an 
intergovernmental effort to develop nonbinding guidelines and 
property processes for the return of communal and private 
property, something that has not been done in any of the 
previous conferences. And this is all being done under the 
auspices of the newly created European Shoah Legacy Institute, 
which will be at Terezin.
    Last is artwork: Since the adoption of the Washington 
Principles on Nazi Looted Art, in 1998, which I helped 
negotiate, the major art markets have radically changed. Art 
auction houses like Christie's and Sotheby's have established 
their own full-time, in-house experts to look at the provenance 
of any art they handle from the 1933-to-1945 years passing 
through Europe.
    Our own American museums have created a central search 
engine so a claimant can put a particular claim through that 
search engine and it goes to scores of museums around the 
country. There have been hundreds of pieces of art returned. 
Austria, for example, has actually incorporated the Washington 
Principles into domestic legislation. So has Russia but they 
have not implemented their own lay.
    The Terezin Declaration reiterated national commitments to 
the Washington Principles and also emphasized two issues of 
particular importance since those original principles were 
negotiated in 1998, and that is the need to develop the 
provenance of artworks through careful research and 
scholarship, and to resolve disputes based on the available 
records about the location and ownership of works during the 
Holocaust period whenever possible through alternative dispute 
resolution processes.
    It urged the courts, Mr. Chairman, and other fora that 
decide art restitution cases to base their cases on the facts 
of the individual case rather than relying on technical legal 
grounds such as a statute of limitations. And here, permit me 
to be very frank: The momentum following the 1998 Washington 
conference to return looted art to its rightful owners has 
significantly dissipated.
    It has generated into lengthy, costly litigation in which 
the holders of art increasingly use technical defenses like 
statutes of limitation rather than making a decision on the 
merits. For sure, every claimant is not making a just claim but 
those claims ought to be considered. And that's what the 
Washington Principles and Terezin encourage; based on the 
merits and not on technical defenses.
    The Washington Principles called for the establishment of 
commissions or other fora to handle these cases rather than 
going to court. The United Kingdom, Germany, France, Austria 
and the Netherlands all have established such commissions; we 
in the United States have not. To try to address that issue, 
the State Department has held a series of what we call town-
hall meetings with all the stakeholders in the American art 
world.
    We have not yet come up with a model for a commission--what 
qualifications commissioners should have, how they would be 
appointed, who would pay for their cost, how it would be 
structured, what their responsibilities would be--but we're 
still studying it; we're very interested in continuing to look 
at it and we certainly would welcome your ideas and those of 
the commission on this matter.
    Let me conclude with the following: Where do we go from 
there? Our job in the State Department is to work with the 
states that participated in the Prague Conference to convert 
the moral commitments in the Terezin Declaration into action. 
That's what we're doing with the best practices that we're now 
negotiating. That is the job that the European Shoah Legacy 
Institute has likewise committed itself. They are, for example, 
talking about having a possible conference in 2012 to look at 
the implementation.
    But I want to close with two issues that I feel very, very 
strongly about. The first is that elderly survivors or their 
families are often at wit's end in knowing how to seek the 
return of their real, immovable property; their artwork or 
other possessions brutally taken from them; so by force, say, 
by the Nazis or their collaborators. They're simply stymied.
    There is only one place in the United States of America 
where anything systematically is being done to try to help 
them. They can't hire lawyers; they don't know the language 
abroad. And so the only place is the New York Banking 
Commission's Holocaust Processing Office under the inspired 
direction of Anna Rubin with a small, paid staff with whom I've 
met, paid for by the taxpayers of New York.
    It does afford a venue to help claimants navigate foreign 
records and judicial or administrative proceedings but it's a 
very tiny office. It's funded with the generosity of New York 
taxpayers and, by the way, they handle claims all over the 
world; not just New York residents. We do not have any other 
vehicle to do this. I call on the Helsinki Commission and your 
leadership to consider how to establish a process similar to, 
or augmenting, or supporting the New York office with the 
resources to research and facilitate claims.
    Just again on a personal basis, you cannot imagine how many 
poor people call me asking for help: Where do I go, who do I 
see, how do I understand the local language, what lawyer in 
Poland or the Czech Republic or Slovakia can help me? We need 
to have a method of doing it. The State Department, Mr. 
Chairman, cannot do it because of the espousal doctrine. We do 
not espouse claims for people who were not American citizens at 
the time of the taking. That's a long-established fact. So we 
need to try to find ways, perhaps, building on the New York 
office, to support that. Time is running out and the hourglass 
is fast ending.
    Second and last, as a former U.S. ambassador to the EU, I 
want to say something. I am a great supporter of the European 
Union. It's one of the great exercises in shared sovereignty. 
It has united East and West Europe in a harmonious, democratic 
and free-market project. It's really quite amazing.
    But, while some individual members of the EU have done good 
work in restituting property and providing compensation and 
social justice for survivors of the Holocaust and other victims 
of Nazi oppression, the EU as an institution which regards 
itself as a moral power in the world has done very, very little 
collectively to right particular wrongs of the past.
    It was, after all, not in the United States, it was in 
Europe where these heinous crimes against Jews and non-Jews 
were perpetrated. It is in Europe, not the United States, where 
property was confiscated. It was in their member-states. Even 
so, they continue to take a hands-off approach to those member-
states who do not live up to obligations, some of which they 
voluntarily accepted in acceding to membership; nor has the EU 
committed any funding, for example, to the European Shoah 
Legacy Institute.
    It seems to me that it's time for the European Union not to 
simply leave Holocaust-era issues to the United States, but to 
deal with them as well with their own member-states and with 
their own financial resources in the European Commission, and 
to assume their proper place in a partnership with us and other 
countries to resolve the many outstanding Holocaust-related 
problems that still confront the continent 70 years after the 
Shoah.
    Again, with your permission, we would like to submit, 
later, a country-by-country assessment of where the property 
restitution issue lies. Thank you again, and thank you, again, 
for your leadership.
    Mr. Cardin. Well, Ambassador Eizenstat, thank you for your 
testimony. Your entire testimony, along with the supplements 
and country-by-country will be made part of our record. I just 
want to underscore the difficulty that people have in pursuing 
claims. My office was contacted many years ago concerning a 
claim in Romania for the return of property that was wrongfully 
taken.
    And they had been through the Romanian courts several times 
with successful results, but no property. And this was going on 
for many years, and the only way we were able to get it 
successfully handled was putting a spotlight on it, causing a 
lot of international attention, and ultimately, the property 
was returned.
    I mention that because I don't know how many people, how 
many families can go through that type of a process. It was 
very costly. It took a lot of travel, a lot of time. And there 
needs to be a more streamlined approach. So we certainly will 
take a look at your concerns, and we applaud the state of New 
York for what it's doing on processing claims for their 
citizens. But there should be some process here in the United 
States to deal with so many of our citizens who have open 
matters. And we'll take a look at that and see whether we can't 
help that along.
    You mentioned the Terezin Declaration several times, and I 
just came back from a follow-up meeting. There was originally, 
I think, either 46 or 47 countries, I believe that were a part 
of it. In the follow-up conference, it is my understanding, 
only 30 states participated. Is there anything to be read into 
the fact that you didn't have quite the same level of interest 
in your most recent meeting?
    Mr. Eizenstat. I don't think so. It's a good question, but 
I don't think so. And the reason is that when I look back to 
the run-up negotiating sessions that we had to the Prague 
conference, and then the ultimate Terezin Declaration which 
came from it, we did not have all 47 countries in the working 
group. There is a core group that we call friends of the 
chair--the chair being the Czechs.
    There have been four or five negotiating sessions with the 
friends of the chair. And then we had the broader negotiation 
with 30 countries just last week in Prague. Again, that's 
basically the same number we had in the run-up sessions before. 
The Czech prime minister, Prime Minister Fischer, is personally 
going to send a letter to the heads of government and heads of 
state of all 47 countries asking them to come to Prague, or 
send a representative, for the declaration of these principles. 
And I would hope to get very close to the full complement of 
these countries.
    Mr. Cardin. Well, that's encouraging. Do you want to just 
explain to us what is meant by--legally non-binding and without 
prejudice to applicable international laws and obligations, 
which is, I understand, the language in the Terezin 
Declaration?
    Mr. Eizenstat. Yes, sir. Senator and Chairman, going back 
to the Washington principles on art, we learned a very hard 
lesson in negotiating those principles, and that is that if we 
tried to establish what in effect would be an international 
treaty--a binding, legal document--that we would never get 
anywhere. We made these, therefore, moral principles, legally 
nonbinding.
    It's a sort of contradiction of terms, but it is meant to 
mean that each state can act within its own national laws, as 
it sees fit, but that these are moral principles that should 
guide it.
    Now the fact is, one would say, well, if that's the case, 
what good is it? I can assure you that the Washington 
principles, although not legally binding, have, as I mentioned 
in my testimony, dramatically changed the entire art world. 
It's created a context. Everything we've done has been non-
binding. The $8 billion we negotiated wasn't done by fiat or by 
mandate; it was done by using the moral force of the United 
States of America to help mediate these disputes.
    That's what we're trying to do, together with the Czechs 
and the other friends of the chair countries, with property 
restitution. I believe once we have these principles 
outstanding, it will give us a litmus test, a standard, by 
which to judge actions that will allow you, as chairman, and 
the Helsinki Commission, to ask countries to live up to those 
standards, even though they're not legally binding. If we 
tried, again, to make them legally binding, we wouldn't get to 
first base.
    Mr. Cardin. No, I agree with the strategy. It is an anomaly 
to say non-legally binding. I mean, it just seems, as an 
inconsistency, to use those terms--legally non-binding.
    Mr. Eizenstat. It's meant to reinforce the fact that 
they're non-binding.
    Mr. Cardin. Right, right. You've mentioned several times 
the European Shoah Legacy Institute. I believe the United 
States has committed to making a contribution to that 
institute. You've indicated Europe has--EU has not been willing 
to do that. Can you just explain how the European Shoah Legacy 
Institute fits into the framework of what was accomplished in 
the Czech conference?
    Mr. Eizenstat. Let me first say that this was entirely, at 
its inception, a Czech initiative. They wanted to have what 
would be the first follow-up institution from any of our 
conferences. There's never been a connective tissue between 
London in 1997 and Prague in 2009.
    So their notion was to create an institute--ongoing--
staffed by the government, and contributed to by other 
countries. We have indicated we would contribute $150,000 a 
year for five years; the state of Israel, I think, $75,000 a 
year for the next several years; and they're looking for other 
contributions. It would have a permanent staff. It's now 
temporarily in Prague; it will be in Terezin.
    And its job is to see to it that it acts as a voluntary 
forum by which survivors, survivor groups and other Nazi 
victims and NGOs can look at the latest developments in the 
area. They will encourage the implementation of the commitments 
in the Terezin Declaration--in particular, private and communal 
property principles. They will have central databases that will 
be available. So it's really a very thoroughgoing effort.
    I met, when I was in Prague just a few days ago, the new 
executive director and the chairman of the board, who, the 
chairman is himself a Holocaust survivor from Auschwitz. It's 
really a quite remarkable undertaking. They're going to also 
encourage, in cooperation with the Holocaust Education, 
Remembrance and Research Taskforce, Holocaust education. So 
it's a very thoroughgoing, across-the-board effort to really 
put meat on the bones of the Terezin Declaration.
    Mr. Cardin. Do any other European countries, other than the 
Czech Republic, indicate a willingness to help and support 
this? Germany and Austria have indicated that they would help 
on a project-by-project basis. They've not yet made a decision 
on whether to commit general funds for staff, but they have 
indicated that they would consider project-by-project support. 
And this is where the European Commission comes into play.
    The European Commission has a very, very large cultural 
budget. This is a perfect thing for them to support, as well as 
to do more to encourage member states on property restitution. 
But I really hope that they will do so. They came to the Prague 
Conference. One of the commissioners gave an eloquent statement 
about the importance of what we were doing. And I would hope 
that eloquence would be translated into funds and to support.
    And we'll follow up with our contacts with the European 
community. You mentioned several times this country-by-country 
analysis. Who prepared that?
    Mr. Eizenstat. The country-by-country analysis was prepared 
by, again, the small-but-excellent staff of the office of 
Holocaust assets, now under Doug Davis, and previously, 
Christian Kennedy. And it's done by a quite exhaustive effort 
going to groups like the American Jewish Committee, to the 
Jewish Claims Conference, to others who work on the ground, 
touching base with local Jewish communities in those countries, 
touching base with the governments, looking at what state of 
the law exists in those countries.
    So it's a major effort. I don't want to, frankly, 
exaggerate this. If you look at other reports the State 
Department does--the human rights reports, for example--these 
are, oftentimes, much more detailed with a much larger staff. 
But given the very small staff--and at that, some are working 
part time--it's quite remarkable how much they can turn out. So 
they go through all of these efforts to try to develop a 
country-by-country analysis.
    Mr. Cardin. I'm just curious as to whether it may have more 
attention if it were sponsored by an institute or a group 
coming out of the Terezin Declaration so that it gets more 
acceptance among the European capitals. But is this report 
going to get--is this country-by-country analysis going to get 
the attention it needs in Europe?
    Mr. Eizenstat. I hope so. I mean, one of the things that 
the European Shoah Legacy Institute can do is serve as a 
repository for that kind of a report, disseminate it to 
countries and urge that they take action based on that report. 
So that would be, actually, something quite interesting for us 
to propose to the Shoah Legacy Institute.
    Mr. Cardin. It's also a matter of the credibility of the 
report. And I'm not at all challenging the quality of this 
country-by-country report, but it needs to have international 
credibility. When the State Department issues its reports on 
the status of human rights or on trafficking issues, it is 
taken very seriously in the capitals around the world because 
they know the quality and objectivity that is being put into 
this.
    And I think it's important, also, if this country-by-
country report is going to be used as the yardstick to measure 
progress being made in capitals that still have yet to do what 
is necessary.
    Mr. Eizenstat. I agree with that. There is one difference, 
however: For example, the human rights report gets much more 
press attention. It's very difficult to get press to focus on 
this issue. So that's, again, why I'm so grateful that you're 
holding this hearing.
    Mr. Cardin. Well, I have another suggestion on that, and 
that is, you talk about best practices, and we all like to use 
best practices. I guess that's our human nature, to showcase 
what countries are doing well. But I've found, in Helsinki, the 
way you get the most attention is to bring out those that are 
the worst cases, rather than the best cases, and calling them 
out by name.
    And it seems to me that if we expect to make progress, it's 
the way we made progress on violations of human rights, by 
calling out specific countries and practices against specific 
individuals--that's necessary in regards to these issues. That 
we also have to bring out those countries that are not doing 
what other countries are doing, and are deficient.
    Mr. Eizenstat. But if I may--that's a very good point--if I 
may offer one other thought, and that is that you and Co-
Chairman Hastings consider a joint resolution in which you 
attach the report, call attention to it, urge that countries 
take it seriously. It would be a way of also elevating 
congressional attention, but also the attention of the 
countries mentioned here.
    I think if Congress were to do that, it would be very much 
appreciated. And you could also attach the Terezin Declaration. 
Hopefully, by then, we will have our best practices and 
guidelines completed for immovable property, and that would 
form the basis, perhaps, of something that could be referred to 
in a joint resolution.
    Mr. Cardin. We'll certainly try to give it higher 
visibility. You mentioned Lithuania's moving forward with 
communal property laws; are they going to correct the concerns 
by the Jewish community on the returns of educational 
facilities?
    Mr. Eizenstat. This is as issue I've been working on for 15 
years. At Prague, and I think induced by the Prague Conference, 
they did make a specific monetary proposal to try to monetize 
this so it wouldn't be just a property-by-property issue. The 
figures that they mentioned at that time were conditional, 
spent over many, many years, and at that point, at least, there 
wasn't a broad acceptance among survivor groups and Jewish 
organizations.
    I can't speak for them in terms of their views now, but I 
think that there is some willingness to try to come together 
with the government of Lithuania and reach an agreement. And I 
think Lithuania's interested in resolving this issue, finally. 
And again, hopefully, our new best practices will be a further 
encouragement for Lithuania to complete this.
    Mr. Cardin. I think our expectations are that Lithuania 
will get this job done. I mean, they're taking on major 
responsibilities in international organizations. In the OSCE, 
they're taking on a leadership position--the leadership 
position. And they have been very forthcoming in acknowledging 
that they have to do better, and now, it's time for them to get 
the law passed and implement it.
    Mr. Eizenstat. I agree, and there's someone who's been very 
interested in these issues who is now in the parliament in the 
ruling party--Emanuel Zingeris--and I hope that his leadership 
will also help.
    Mr. Cardin. Well, we'll be following that carefully. I want 
to just underscore the point you raised about the 
impoverishment of Holocaust survivors. I mean, it's absolutely 
heart-wrenching when you see the status of so many people who 
were victimized during World War II living in extreme poverty, 
including in wealthy nations. And what is the strategy? I mean, 
time is running out. Congressman Smith, in his opening 
statement, pointed out that the victims are getting old.
    And if we don't act now, it's going to be too late. What 
can we do to really make an impact--a significant impact on the 
quality of their life so that they can at least get some of the 
benefits from these restitution issues?
    Mr. Eizenstat. Well, I appreciate the sense of urgency, 
which we certainly share with you. For one thing, if we can 
deal with the immovable property issue, particularly communal 
property, and that can be sold, it will create a real 
opportunity for funds, because almost 100 percent of the Nazi 
victims who are living in Central and Eastern Europe are in or 
close to poverty level.
    And so this would be a very excellent way of dealing with 
it. There are other ways. For example, in Austria, they have a 
very creative program in which they've now located, in their 
national library, several thousand Holocaust-era books which 
were stolen. They're selling it to their national museum. The 
national museum is paying money, which will then be distributed 
through their national fund for victims.
    It's very difficult to deal with the social issue, given 
budget constraints. But if I may, just to give a sense of 
urgency to this, as of--and this is taken from the November, 
2009 report of the conference on Jewish material claims against 
Germany. I think these figures are valid. The total Jewish Nazi 
victim population, as of December 31, 2010--end of this year--
is expected to be 516,700. It is estimated that, at the end of 
this year, of that number, 259,000 will be living in poverty.
    That includes 73,000 in Israel, 25,000 in Central Europe, 
90,000 in the former Soviet Union, and 45,800 in our country. 
This is very difficult. The question of whether there should be 
special compensation funds for victims here--we've talked to 
members of the House--former Congressman Wexler. It would be 
very difficult, at a time when there's a lot of poverty here, 
to say that there should be an extra complement of funds for 
these victims. Again, I think the best thing we can do is to 
try to provide things like home care.
    The Germans, at the last negotiations in March of 2010, 
agreed to $55 million in home care, worldwide. That is a crying 
need. If you can keep people from being institutionalized and 
giving them help with their daily medicines and their daily 
needs, that would be a very good thing. And again, if we can 
make progress on property restitution, that is one real area 
where, by selling those properties, something can happen. Let 
me give you an example, if I may.
    There are several hundred synagogues that, to its credit, 
Poland have returned. They've actually done a commendable job 
on communal property. There are several thousand claims that 
have been made. They've processed about 30 percent of them. We 
hope they'll do it faster and more. But they are at least going 
through a process. Hundreds are returned, but they're returned 
in areas and in a dilapidated state where there are no people 
to keep them up.
    If a process could be developed by which those properties, 
which are on real property and which have some value, could be 
translated into cash, rather than burdening the community with 
the upkeep of synagogues that won't be used and that they can't 
maintain, it would be an enormous contribution. And if one 
could do that for not just Polish survivors in Poland, of whom 
there are a couple of thousand, but Polish survivors around the 
world, of whom there are tens of thousands, that would do 
wonders.
    So trying to be creative with the use of communal property 
would be one excellent way of dealing with this problem. But as 
you know, we're talking about people whose average age is well, 
well over 70. Thousands are dying every year--in fact, really 
hundreds every month. So we all have to have a sense of urgency 
and creativity about this.
    Mr. Cardin. Well, I thank you and I agree with that 
conclusion. You have obviously made this one of your priorities 
in life, and we appreciate that, and you raise this issue at 
every time you can. You're a person of principle.
    I get the feeling that the priority of this issue is not 
always shared by everyone in the government--our government--
that when bilateral meetings take place between world leaders 
and the United States, property restitution issues may never 
get on the agenda, even though it's an issue of importance in 
that country.
    Do you have any advice for us--to the Helsinki Commission--
as to how we can make this a higher priority among those who 
set up the agenda in the State Department so that we can follow 
up on some of these things? It seems to me if you got a 
friendly push from the administration in some of these 
countries that are close to enacting law, it would certainly 
expedite things. But at times, it sort of gets pushed down to, 
as the administration believes, more urgent issues. How can we 
make this a higher priority?
    Mr. Eizenstat. May I say first that Secretary Clinton has 
raised this issue with Lithuania herself.
    Mr. Cardin. And I didn't mean to make this to this 
administration.
    Mr. Eizenstat. No, I understand.
    Mr. Cardin. I mean, this has been a historical problem that 
predates the Obama administration.
    Mr. Eizenstat. But just for the record, I think it is 
important that she did raise this with Lithuania. 
Undersecretary Hormats' successor, plus the undersecretary of 
economic affairs has raised this very directly with Poland. 
You're quite right: The more it's raised, the more it will be 
paid attention to, and when it's not raised--when there are 
other issues which take priority--and you know, with Poland, 
they're a major contributor to NATO troops, and so forth--we 
understand that. So the more it can be raised, the better, even 
if it's the last talking point in a long list of talking 
points.
    In terms of what role the Helsinki Commission can play, it 
is encouraging senior members of every administration to raise 
this issue when they are meeting with their counterparts. 
Again, it doesn't have to be the number one issue; it's not 
going to be the number one issue. But if it can be raised, it 
will have an impact. And I think, perhaps, Secretary Clinton 
raising this with Lithuania, Bob Hormats with Poland--
hopefully, that will begin to give the signal that the Obama 
administration is very, very serious about this issue.
    Mr. Cardin. Well, it's certainly helped that Secretary 
Clinton, not too many years ago, was sitting on this side of 
the dais asking witnesses the same questions I'm asking about 
property issues. So I think she's extremely sensitive on this 
issue and has been a great friend of the commission, as a 
former member of the commission. And we do raise these issues. 
It's on our agenda in every meeting that we have with 
parliamentary officials and government officials from the 
relevant countries.
    Mr. Eizenstat. Let me suggest one other thing, again, and 
to come back to my last point: We have a new EU ambassador, 
who's just come. Either publicly or privately, if he could be 
encouraged to get a message to Brussels that this is of great 
importance to the Senate of the United States, to the Helsinki 
Commission--House and Senate--by letter or otherwise, and urge 
him to intervene with the European Commission to support these 
efforts--if the Commission--you know, it's not just always the 
United States--if the Commission, the European Union, the 
European Council, would go to their member states and say, this 
is an issue which has to be resolved.
    We believe in the rule of law, under the EU; we believe in 
private property rights in the EU; we believe that European 
citizens--European citizens--were deprived of their rights when 
they were European citizens. European property is involved; 
European principles and moral values are involved. I think that 
it would make a difference. They have gotten a pass on this 
issue.
    Mr. Cardin. Well, I think that's good advice, and we will 
certainly follow through on that. You've given us a lot of good 
advice, particularly in working with our counterparts in 
Europe. Let me say I know this has been frustrating that it's 
been a long time and too many people have been denied the 
restitution and compensation that they're entitled to, but I 
must tell you, I give you a lot of credit for the progress that 
we've made.
    It is encouraging to see that this is being taken seriously 
by 47 countries and that they're coming together in a strategy, 
an action plan, to bring about results, and they're prepared to 
have a process for review to share best practices. I can assure 
you this commission will work very closely with the various 
countries and with the leaders of this effort to offer our 
encouragement and do what we can to put a spotlight on it, and 
particularly to work with our government leaders to continue to 
make this a priority. Thank you.
    Mr. Eizenstat. It's much appreciated, and thanks again for 
your leadership.
    Mr. Cardin. Thank you. With that, the commission will stand 
adjourned.

                                    



  

  

This is an official publication of the

Commission on Security and

Cooperation in Europe.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

This publication is intended to document

developments and trends in participating

States of the Organization for Security

and Cooperation in Europe (OSCE).

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

All Commission publications may be freely

reproduced, in any form, with appropriate

credit. The Commission encourages

the widest possible dissemination

of its publications.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

http://www.csce.gov     @HelsinkiComm

The Commission's Web site provides

access to the latest press releases

and reports, as well as hearings and

briefings. Using the Commission's electronic

subscription service, readers are able

to receive press releases, articles,

and other materials by topic or countries

of particular interest.

Please subscribe today.
</pre></body></html>
